IN THE SUPREME COURT OF THE UNITED STATES

DELA CRUZ, EDDIE N.
Petitioner
vs.

No:

19-0801

ROBERT WILKIE, SECRETARY OF VETERANS AFFAIRS
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
January 21, 2020
cc:
SETH A. WATKINS
WATKINS LAW & ADVOCACY, PLLC
1455 PENNSYLVANIA AVENUE, NW
SUITE 400
WASHINGTON, DC 20004
LOUIS S. MASTRIANI
ADDUCI, MASTRIANI, SCHAUMBERG
& SCHILL
1133 CONNECTICUT AVE., N.W.
WASHINGTON, DC 20036

